                                       NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

                                  CLOSEOUT MEMORANDLTM

11   TO: AIGI   I   File Number: I93010005                                    I   Date: 11 March 2002

11 Subject: Closeout Memo                                                                 Page 1 of 1


         There was no closeout written at the time this case was closed. The following information was
         extracted from the file in conformance with standard closeout documents.

         Our office was informed that the subject' was alleged to have misused NSF employees and postage
         in support of Myers-Briggs seminars. The subject was counseled and this case is closed.
